NO. 20-1171

IN THE SUPREME COURT OF
THE UNITED STATES
___________________________________________
MICHAEL MADISON, Petitioner,
v.
STATE OF OHIO, Respondent.
___________________________________________
On Petition for a Writ of Certiorari to
the Supreme Court of Ohio
___________________________________________
PETITIONER’S REPLY BRIEF
(CAPITAL CASE:
EXECUTION DATE MAY 15, 2024)
Timothy F. Sweeney (OH 0040027)*
Member of the Bar of this Court
LAW OFFICE OF TIMOTHY F. SWEENEY
The 820 Building, Suite 430
820 West Superior Ave.
Cleveland, Ohio 44113-1800
Phone: (216) 241-5003
Email: tim@timsweeneylaw.com
*COUNSEL OF RECORD
Counsel for Petitioner Michael Madison

TABLE OF CONTENTS
TABLE OF CONTENTS ............................................. i
TABLE OF AUTHORITIES ...................................... ii
REPLY BRIEF FOR PETITIONER .......................... 1
1. The State grossly distorts Petitioner’s
mitigation evidence; he did not place his
“mental state at the center of his defense.” ........... 1
2. Kansas v. Cheever does not resolve the
questions presented here. ...................................... 4
3. Petitioner was unconstitutionally forced to
choose between his constitutional rights for his
penalty phase, in circumstances where he
asserted no mental-status defenses and where
other less intrusive means were available to
enable rebuttal........................................................ 7
4. In all events, Cheever recognizes constitutional
limits on such rebuttal evidence; they were
greatly exceeded in this case. ............................... 10
CONCLUSION ......................................................... 12

i

TABLE OF AUTHORITIES
Cases
Buchanan v. Kentucky,
483 U.S. 402 (1987) ...............................4, 5, 6, 9, 10
Estelle v. Smith, 451 U.S. 454 (1981) ................ 5, 6, 9
Kansas v. Cheever, 571 U.S. 87 (2013) .....4, 5, 6, 9, 10
Constitutional Provisions
Fifth Amendment, U.S. Constitution ............ 3, 6, 7, 8
Sixth Amendment, U.S. Constitution ....................... 7
Eighth Amendment, U.S. Constitution ..................... 7
Fourteenth Amendment, U.S. Constitution.............. 7
Other Authorities
Bruce D. Perry, M.D., Ph.D. and Maia Szalavitz,
THE BOY WHO WAS RAISED AS A DOG: AND OTHER
STORIES FROM A CHILD PSYCHIATRIST’S NOTEBOOK - WHAT TRAUMATIZED CHILDREN CAN TEACH US
ABOUT LOSS, LOVE, AND HEALING (New York:
Basic Books, 2006, updated 2017) ......................... 2

ii

REPLY BRIEF FOR PETITIONER
The State’s brief confirms the need for the
Court’s review of the important constitutional
questions which this case presents concerning the
fairness and reliability of the penalty phase of a
capital trial. This Court has not previously addressed
these important issues about court-ordered mental
examinations of capitally-accused persons, for
purposes of the penalty phase of a capital trial, and
the scope of their permitted usage in that phase.
1. The State grossly distorts
Petitioner’s mitigation evidence; he
did not place his “mental state at the
center of his defense.”
In resisting this Court’s review, the State
grossly exaggerates, to the point of farce, the extent
to which Petitioner’s “mental condition” was in issue
in his case. It was not in issue, and certainly not
directly so. The State’s assertions that it was
“squarely placed [] at issue,” and was the “center of
[Petitioner’s] defense,” are pure hyperbole. (State’s
BIO at ii, 13.)
Petitioner raised no mental-status defenses in
the guilt phase: He did not assert any mental disease
or defect or any psychiatric diagnosis, and presented
no evidence or argument that he lacked the requisite
mens res, the capacity to commit the crime, or the
ability to premeditate. The State does not, and
cannot, dispute those facts.

1

Petitioner’s approach did not change in the
penalty phase. There, his mitigation evidence was
focused on his pervasive family history of violence,
abuse, and neglect across generations, on his own
personal childhood experiences with abandonment,
abuse, violence, and neglect as perpetrated against
him by his mother and others, and on the resulting
adverse impact these terrible experiences had on his
developmental course.
His “mental condition” had little if anything to
do with that mitigation case. And, if it did, it was only
very tangentially, because of the prevailing research
which recognizes that one impact of child abuse and
developmental adversity is that it can negatively
affect a young child’s developing brain. That modern
research and scholarly learning is what produced the
now unassailable point that neurodevelopmental
adversity can result from childhood trauma. There
are even popular books about these concepts. See
Bruce D. Perry, M.D., Ph.D. and Maia Szalavitz, THE
BOY WHO WAS RAISED AS A DOG: AND OTHER STORIES
FROM A CHILD PSYCHIATRIST’S NOTEBOOK -- WHAT
TRAUMATIZED CHILDREN CAN TEACH US ABOUT LOSS,
LOVE, AND HEALING (New York: Basic Books, 2006,
updated 2017). See also T. 6614-15 (Dr. Davis
references Bruce Perry’s work).
The prospect of neurodevelopmental impact is
not unique to the adversity and abuse experienced by
this particular Petitioner, nor was it apparent in any
brain imaging or any other neurological testing that
was conducted on him. One of Petitioner’s testifying
psychologists, Dr. Davis, even told the jury there was
2

no evidence of brain damage, and he also said, that if
he had seen such evidence, he would have referred
Petitioner to a neurologist to determine if such
damage exists. (T. 6592, 6669-70.) Thus, even before
the State-requested mental examination was ordered
by the trial court, Petitioner’s trial counsel had
already disclaimed any intent to present any such
neurological evidence or any mental status defense.
(T. 443 (“We’re not presenting a neuropsychologist
simply because we’re not arguing that brain damage
is an affirmative defense in either the trial phase or
the mitigation phase in this case. And on that basis,
because we’re not placing the mental health issue as
a culpability thing and we’re not placing
incompetency or sanity, to ask our client to submit to
an examination at this point will clearly violate his
Fifth Amendment privilege”).) And, at trial, the judge
ensured there was no confusion by instructing the
jury, during the testimony of defense psychologist Dr.
Mark Cunningham: “When we talk about wiring,
we’re not talking about brain injury or brain damage.”
(T. 6979.)
Petitioner’s two testifying experts (Drs. Davis
and Cunningham), indeed, are psychologists; they are
not psychiatrists (as the State repeatedly
misidentifies them, see BIO at 1, 4), and they are not
neurologists or neuropsychologists. Their testimony
about the modern research on the neurodevelopmental impact of childhood trauma was not
based on examinations, images, scans, or studies of
Petitioner’s brain, but on the general research and
scientific learning, accepted in their profession, which
recognizes such impacts. Their testimony about that
3

point was sourced in the literature, and was not from
or dependent on personal examinations of Petitioner.
The point was tangential to the mitigation case; it was
a scholarly detail which helped illuminate one of the
many adverse factors which plagued Petitioner’s
childhood and upbringing.
It is thus false for the State to claim that “brain
damage” was “central” to Petitioner’s defense. To the
extent the State even needed to rebut the research
point on which Petitioner’s experts relied, the State
had many other sufficient and effective ways to do so
which did not necessitate a forced psychiatric
examination of the Petitioner by a State psychiatrist.
2. Kansas v. Cheever does not
resolve the questions presented
here.
The State also claims the Court settled these
issues in Kansas v. Cheever, 571 U.S. 87 (2013). That
is plainly wrong.
In Cheever, like Buchanan v. Kentucky, 483
U.S. 402 (1987), the Court recognized that the
constitutional issue depends upon whether the
defendant placed his mental state in issue by
asserting a “mental-status defense,” with that term
defined in Cheever to include “those based on
psychological expert evidence as to a defendant’s
mens rea, mental capacity to commit the crime, or
ability to premeditate.” Cheever at 96. In Buchanan,
the mental-status defense was extreme emotional
disturbance; in Cheever, it was voluntary intoxication
4

by methamphetamine. And, in both Cheever (a capital
case) and Buchanan (a non-capital case as to that
defendant), the issue arose only in the context of
mental-status defenses to the charged crimes,
which, if successful, would result in defendant’s
acquittal and/or avoidance of criminal liability.
The Court’s decision in Estelle v. Smith, 451
U.S. 454 (1981), is the only one of the three which
involves the penalty phase of a capital case for an
already-convicted defendant. There, the capital
defendant did not present any mental-status defenses
in the guilt phase and, therefore, he prevailed in this
Court on his challenge to the State’s use in the
penalty phase of a compelled pretrial competency
exam. True, the Estelle Court suggested that its result
may be different where, for example, the defendant
has asserted the insanity defense and introduces
supporting psychiatric evidence. Id. at 465 (“When a
defendant asserts the insanity defense and introduces
supporting psychiatric testimony, his silence may
deprive the State of the only effective means it has of
controverting his proof on an issue that he interjected
into the case.”).
But those circumstances were not present in
Petitioner’s case either: He did not assert the insanity
defense or any other mental-status defense, and he
presented no mental-status evidence or argument for
which a fair rebuttal would necessitate the
government to force the defendant to submit to a
psychiatric examination by a psychiatrist of the
government’s choice.

5

Petitioner’s
case
thus
presents
the
circumstances which are not addressed by Buchanan
and Cheever and are, at best, left open in Estelle.
Petitioner did not present, in the guilt phase, any
mental-status defense or any other evidence or
argument that he lacked the requisite mental state to
commit the crime (unlike in Cheever and Buchanan).
And, although like Estelle, Petitioner’s case proceeded
to a penalty phase––and his Fifth Amendment
protection thus followed him there too, protecting him
from being made the “deluded instrument” of his own
execution, Estelle at 462––he did not present any
mental-status defenses in the penalty phase either.
A mitigation case based on developmental
adversity and an abusive childhood is not a mentalstatus defense, and certainly not as defined in
Cheever or as eluded to in Estelle. It is not even a
defense to the crimes because––since it is intended
only for use at the penalty phase––Petitioner by
definition would already have been found guilty of the
charged capital crimes before any such evidence
would ever be presented to his capital jury as
humanizing mitigation.

6

3. Petitioner was unconstitutionally
forced to choose between his
constitutional rights for his penalty
phase, in circumstances where he
asserted no mental-status defenses
and where other less intrusive
means were available to enable
rebuttal.
With no mental-status defense being placed in
issue, at either phase, Petitioner’s Fifth Amendment
rights should have prevailed. He should not have been
forced to choose, for penalty-phase purposes, between,
on the one hand, his Fifth Amendment rights, and, on
the other, his vitally important rights under the
Sixth, Eighth, and Fourteenth Amendments,
uniquely possessed in a capital case, to a thorough
mitigation
investigation
and
the
resulting
opportunity to present his jury and judge with the
mitigation evidence that will enable them to make the
constitutionally-required individualized sentencing
determination as to him, and perhaps conclude that
his moral culpability warrants that his life be spared.
The State’s Brief in Opposition confirms that
the prosecution has no sensitivity whatsoever to the
constitutional rights of a capitally-accused person in
and for an eventual penalty phase, and thus no
tolerance for any thoughtful attention to their
protection. The State argues with a bludgeon not a
scalpel, insisting upon an all-or-nothing approach
that any penalty-phase mental-health testimony by
an expert who interviewed the capital defendant must
mandate a tit-for-tat compelled mental exam in
7

response. The State has no consideration for the
fundamental difference between the guilt and penalty
phases, for the different interests at stake in the two
phases, or for the availability and sufficiency of other
effective means to rebut evidence presented only in
that later phase.
The Court has never held for such an all-ornothing approach, and certainly not for mental health
testimony that will only be used in an eventual
penalty phase of a capital case. The Court’s precedent
in capital cases––and the importance of a thorough
mitigation investigation and of a fully-informed jury
capable of making an individualized moral judgment–
–requires sensitivity to these various constitutional
rights with an awareness of what is actually at issue
in the penalty phase. It is no longer about guilt or
innocence; the only issue now is whether the alreadyfound-guilty defendant will live or die––the only issue
is the weighing of aggravation against mitigation for
an individual who will, in the best case, receive a life
sentence for his crimes.
Because that is the framework in the penalty
phase, this Court should be vigilant to ensure that the
capital defendant’s Fifth Amendment right that he
not be made the “deluded instrument” of his own
execution is not needlessly sacrificed to his equally
important rights to a thorough mitigation
investigation and an individualized sentencing
determination which is informed by that
investigation. All such rights can and must be
protected, and that can be done without sacrificing
fairness to the State or to the capital defendant in the
8

penalty phase. The Ohio courts failed to protect the
rights of the capital defendant by being overlyindulgent to those of the prosecution.
In Petitioner’s case, for example, there was no
reason––and the State does not offer one––why a fair
“rebuttal” could not have been obtained with the
State’s review, cross-examination, and its own
expert’s testimony, all in reliance on the reports
prepared and documents reviewed by Petitioner’s
testifying experts. That was sufficient in Buchanan.
The State did not need, and was not entitled to, its
own mental examination of Petitioner in order to
conduct effective rebuttal, and certainly not when
Petitioner did not, in either phase, rely on any
mental-status defenses as defined in Cheever.
Cheever, 571 U.S. at 96 (those involving “a
defendant’s mens rea, mental capacity to commit a
crime, or ability to premeditate”).
Adherence to Cheever, Buchanan, and Estelle,
and to what the Constitution compels, does not mean
the State will be unable to present expert testimony
or engage in effective “rebuttal” in the penalty phase.
The State can still present its desired expert, and
“rebut” the defendant’s experts; but the State should
not be entitled to force the capital defendant to
participate in an interview with the State’s expert.
Compelling that Sophie’s choice
was
particularly unnecessary here as demonstrated by
the State and Dr. Pitt’s abuse of the indulgence they
were given. To achieve a fair rebuttal, there was no
need for Dr. Pitt to be asking Petitioner about
9

“character defects,” and whether he’s a liar, and
whether he has a temper, and whether he holds
“grudges,” and about his “sexual practices,” and what
he can do to improve himself, and what he thinks of
El Chapo, and on and on with Dr. Pitt’s defiance of the
trial court’s order to limit the examination to “brain
damage.”
There was likewise no need for the jury to see
and hear the seven unfairly prejudicial video clips,
from that compelled exam, about such irrelevant
matters, all under the pretense of “fair rebuttal.”
It was nothing of the sort.
4. In all events, Cheever recognizes
constitutional
limits
on
such
rebuttal evidence; they were greatly
exceeded in this case.
And even if a compelled examination is proper,
it may only be used for a “limited rebuttal purpose”:
“the limited purpose of rebutting a mental-status
defense.” Buchanan, 483 U.S. at 424; Cheever, 571
U.S. at 92.
Although the State, like the Supreme Court of
Ohio, both cite to Buchanan and Cheever, they both
disregard the constitutionally-essential limiting
principles of those cases, which are two: (1) defendant
must have placed his mental state directly in issue;
and (2) even then, any rebuttal via State mentalhealth evidence must only be for the limited purpose
of rebutting defendant’s mental status evidence.
10

Here, Petitioner did not place his mental state
directly in issue. Plus, the State and its expert blew
passed the constraints of a “limited rebuttal purpose,”
just as they ignored the trial court’s order that the
“examination only relates to the brain damage of
defendant.”
One unfortunate result of the Supreme Court
of Ohio’s ruling will likely be to open the flood gates
to court-compelled, State-requested psychiatric
examinations of capital defendants when they are not
even faintly necessary for any fair or necessary
“rebuttal.” It will unfairly ease the way for Ohio
prosecutors, in capital cases, to present irrelevant and
prejudicial evidence of non-statutory aggravating
circumstances such as alleged “bad” character, lack of
“remorse,” absence of “brain damage,” alleged mental
health disorders such as “anti-social personality
disorder,” and other prejudicial and irrelevant
matters, all wrapped up in the bow of an “expert”
report and accompanying testimony, exactly as in
Petitioner’s case. It allows the State to push the
thumb more firmly down in favor of death in cases
where the capital defendant, like Petitioner, had not
placed his mental status directly in issue for any
relevant purpose, and it wrongly forces the defendant
to be the deluded instrument of that State effort.
The U.S. Constitution and this Court’s
precedent
demand
much
more
sensitive
consideration, than the Ohio courts provided here, of
the limited scope of penalty-phase mental-healthexpert rebuttal in capital cases where the defendant

11

has not placed his mental state directly in issue and
has disclaimed any mental-status defense.
This case provides a good vehicle for the Court
to address these important issues and ensure that
vital constitutional protections in capital cases are
not sacrificed to labels, superficial inquiry, and
prosecution-orchestrated gamesmanship.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully Submitted,
/s/ Timothy F. Sweeney
Timothy F. Sweeney (OH 0040027)*
Member of the Bar of this Court
LAW OFFICE OF TIMOTHY F. SWEENEY
The 820 Building, Suite 430
820 West Superior Ave.
Cleveland, Ohio 44113-1800
Phone: (216) 241-5003
Email: tim@timsweeneylaw.com
*COUNSEL OF RECORD
Counsel for Petitioner Michael Madison

12

